                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                    Review of Costs Charged to Iraq

                                Democracy-Building Grants Awarded to the

                                   International Republican Institute

                                         During FYs 2004-2010


                                             Report Number AUD-CG-12-35, June 2012




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                                                United States Department of State
                                                                and the Broadcasting Board of Governors

                                                                Office of ""pector General
                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978 , as
amended, and Section 209 o f the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State (Department) and the Broadcasting Board of Governors.

        This report addresses costs claimed for eight grants awarded by the Department to the
International Republican Institute (IR!) during FYs 2004- 2010. The purpose of the eight grants,
totaling $130.7 million, was to provide democracy-building programs throughout Iraq. The
report is based on interviews with employees and officials of relevant agencies and institutions,
direct observation, and a review of applicable doc uments.

        OIG contracted with the independent public accountant Clarke Leiper, PLLC to perform
this agreed-upon procedures review. The contract required that Clarke Leiper perform its review
in accordance with guidance contained in the Government Auditing Standards, issued by the
Comptroller General orthe United States. Clarke Leiper's report is included.

        Clarke Leiper found that the direct costs charged to the grants were reasonable for the
purpose of conducting the programs, with appropriate support documentation. However, indirect
costs were overcharged by $260,648 as a result of excess security costs that were included in the
overhead base. For the majority of the review period, the allocation of security contract costs
between the grants was not supported by a method that could be verified. Consequently, four of
the eight grants exceeded their respective award budgets by a total of $4,589,952. Also, security
costs remained high through 2009 when IRI did not compete the sole-source contract even
though other qualitied security firms were available for contract competition. The report
identified areas to strengthen internal controls for procurement and property management.

       OIG evaluated the nature, extent, and timing of Clarke Leiper's work; monitored progress
throughout the audit; reviewed Clarke Leiper's supporting documentation; evaluated key
judgments; and performed other procedures as appropriate. OIG concurs with Clarke Leiper's
tindings, and the recommendations contained in the report were developed on the basis of the
best knowledge available and were discussed in draft form with those individuals responsible for
implementation. ~IG's analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        1 express my appreciation to all orthe individuals who contributed to the preparation of
this report.



                                         Harold W. Geisel
                                         Deputy Inspector General
                                                 UNCLASSIFIED



                                             CLARKE LEIPER, PLLC
                                            CERTIFIED PUBLIC ACCOUNTANTS
                                                  6265 FRANCONIA ROAD
                                                ALEXANDRIA, VA 22310-2510


                                                       703-922-7622
                                                    FAX: 703-922-8256


DORA M. CLARKE
LESLIE A. LEIPER
DONG S. KIM

         Office of Inspector General
         U.S. Department of State 

         Washington, D.C. 



                  Clarke Leiper, PLLC (referred to as “we” in this letter), has performed the procedures
         enumerated in Appendix A, which were agreed to by the Office of Inspector General (OIG),
         solely to assist in evaluating the International Republican Institute’s (IRI) cost charges and
         allocation of costs related to eight democracy-building grants in Iraq awarded during the period
         of FYs 2004–2010 by the Department of State (Department). IRI’s management is responsible
         for its cost charges. This agreed-upon procedures engagement was conducted in accordance
         with attestation standards established by the American Institute of Certified Public Accountants.
         The sufficiency of these procedures is solely the responsibility of those parties specified in this
         report. Consequently, we make no representation regarding the sufficiency of the procedures
         either for the purpose for which this report has been requested or for any other purpose.

                 We were not engaged to and did not conduct an examination of the costs charged against
         the eight grants, the objective of which would be the expression of an opinion thereon.
         Accordingly, we do not express such an opinion. Had we performed additional procedures, other
         matters might have come to our attention that would have been reported to you.

                We conducted this agreed-upon procedures engagement from November 2011–
         March 2012 in accordance with Government Auditing Standards, issued by the Comptroller
         General of the United States. We communicated the results of our engagement and related
         findings and recommendations to the Department’s OIG.




         Clarke Leiper, PLLC
         May 2012




                                                 UNCLASSIFIED

                      UNCLASSIFIED


ACRONYMS


A/LM/AQM     Bureau of Administration, Office of Logistics Management, Office
                of Acquisitions Management
Ardan        Ardan Energy Services
Blackwater   Blackwater Security Consultants
Department   Department of State
Diligence    Diligence Middle East, LLC
DRL          Bureau of Democracy, Human Rights and Labor
Global       Global Strategies Group
Greystone    Greystone, Limited
IRI          International Republican Institute
NICRA        Negotiated Indirect Cost Rate Agreement
OIG          Office of Inspector General
OMB          Office of Management and Budget
Pilgrims     Pilgrims Group, Limited
SF-269       OMB Standard Form 269, Financial Status Report
SIGIR        Special Inspector General for Iraq Reconstruction
USAID        U.S. Agency for International Development




                      UNCLASSIFIED

                                                UNCLASSIFIED


                                       TABLE OF CONTENTS 



Executive Summary .................................................................................................1 


Background ..............................................................................................................2 


Objective ..................................................................................................................3 


Results......................................................................................................................4


    A.   Security Costs Were Not Properly Allocated ...............................................4 

    B.   Excess Security Costs Were Included in the Overhead Base .......................8 

    C.   Security Contracts Were Awarded Without Competition ...........................10 

    D.   Vehicles Were Acquired Without Prior Approval From Grants Officer ....12 

    E.   Internal Controls Over Equipment Required Improvement ........................13 


List of Recommendations ......................................................................................16 


Appendices 


    A.    Scope and Methodology .............................................................................17 

    B.    Schedule of Total Claimed and Recommended Costs by Grant .................20 

    C.    Allocation of Security Costs Subject to Overhead......................................21 

    D.    Bureau of Administration Response ...........................................................22 





                                                UNCLASSIFIED

                                        UNCLASSIFIED


                                    Executive Summary

       At the request of the Department of State (Department), the Office of Inspector General
(OIG) contracted with Clarke Leiper, PLLC (referred to as “we” in this report), to perform
agreed-upon procedures for eight grants awarded by the Department to the International
Republican Institute (IRI) during FYs 2004–2010. The purpose of the eight grants, totaling
$130.7 million, was to provide democracy-building programs throughout Iraq.

       We found that the direct costs charged to the grants were reasonable for the purpose of
conducting the programs. All costs were supported by invoices and other appropriate support
documentation. However, for the majority of the stated period, the allocation of security
contract costs between the grants was not supported by a method that could be verified.

        Office of Management and Budget (OMB) Circular A-122, Cost Principles for Non-
Profit Organizations, requires that costs allocated to a Federal award be treated consistently with
other costs incurred for the same purpose and be distributed in a reasonable proportion to the
benefits received. Because IRI did not have a consistent and documented process for allocating
the costs between the awards, we reallocated the claimed annual security costs to active grants
based on a ratio of total direct costs exclusive of security contract costs. We determined that
costs for four of the eight grants exceeded their respective award budgets by a total of
$4,589,952. We also noted that security costs of $64,285,818 exceeded the $49,472,461 in direct
costs to carry out the Iraqi democracy-building programs. Security costs remained high through
2009, when IRI did not follow through on a November 2004 plan to evaluate the level of service
and potentially compete the sole-source contract after the January 2005 Iraqi elections. We
believe other qualified security firms were available for contract competition.

        We found that indirect costs were overcharged as a result of excess security costs
included within the overhead base. The resulting overcharges for overhead costs totaled
$260,648. Since January 2010, IRI discontinued the practice that led to the improper allocation
of security costs, and we believe that IRI has now adopted a consistent basis for allocating
security costs to future programs.

       In addition to the conditions noted, we found several instances of noncompliance with the
procurement and property standards established under OMB Circular A-110, Uniform
Administrative Requirements for Grants and Agreements with Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations. Specifically, we found that IRI

              Could not provide proper award documentation related to contract competition for
               two of its security contracts.
              Did not obtain prior approval from the Grant Officer for the purchase and
               disposition of vehicles acquired at $689,500 under one of IRI’s security contracts.
              Did not receive gym equipment totaling $26,600, although IRI had recorded the
               equipment as a grant cost.
              Physical inventory reconciliations against property records did not identify the
               missing gym equipment.

                                             1
                                        UNCLASSIFIED
                                             UNCLASSIFIED




         In this report, we are recommending that the Grant Officer for the eight IRI grants that
provided democracy-building programs throughout Iraq reallocate claimed annual security costs
that resulted in the costs of four of the eight grants exceeding their respective award budgets by a
total of $4,589,952; question as ineligible $260,648 in overcharges for indirect costs; maintain
procurement records and files that include the basis of contractor selection, justifications for lack
of competition, and the basis for award cost or price; direct IRI to adopt an internal control
policy relating to Grant Officer approval for the acquisition of capital equipment; question the
$26,600 cost for gym equipment that was never delivered; and improve property inventory
reconciliation procedures.

        At the conclusion of our work, we briefed IRI officials, the Department’s Grant Officer,
and a program official from the Bureau of Democracy, Human Rights and Labor on findings and
tentative recommendations. IRI stated that security costs had been properly allocated, that its
methodology for including security costs in its overhead rate was allowable, and that it had
complied with OMB circulars for contract competition regarding security contracts. IRI agreed
that additional controls could be implemented to enhance property management policies and
procedures.

       We made six recommendations to the Grant Officer that focused on complying with grant
terms and conditions and improving internal controls within IRI’s current control system. The
Bureau of Administration, Office of Logistics Management, Office of Acquisitions Management
(A/LM/AQM), agreed with all of the recommendations. (The response from A/LM/AQM is in
Appendix D.)

                                               Background

        IRI is a nonprofit organization working to strengthen and expand democracy, with
headquarters located in Washington, DC. IRI supports the growth of political and economic
freedom, good governance, and human rights around the world by educating people, parties, and
governments on the values and practices of democracy. IRI conducts a wide range of
international programs to promote and strengthen democratic ideals and institutions. IRI
programs are individually structured to meet the needs of the participants in the host country.
These programs include training on such issues as civic responsibility, the legislative process for
newly elected government officials, and the mechanics of organizing political parties and
election campaigns.

        The Special Inspector General for Iraq Reconstruction (SIGIR), in its July 29, 2010,
       1
report, identified weaknesses in the Department’s oversight of IRI’s compliance with grant
requirements, concluding that the Department was vulnerable to paying excess charges on grants
awarded for work in Iraq. SIGIR’s report identified eight grants awarded to IRI during
FYs 2004–2010, as shown in Table 1. The SIGIR report focused on one $50 million grant
(No. S-LMAQM-07-GR-209), which SIGIR selected because it was the largest grant in relation

1
Improved Oversight Needed for State Department Grant to the International Republican Institute (Report
No. 10-22, July 2010).

                                                  2
                                             UNCLASSIFIED
                                                   UNCLASSIFIED


to total awards of $130.7 million. SIGIR reported that IRI’s charges and allocations lacked the
following information:

           A methodology of allocating security costs that ensures a reasonable distribution of
            costs among IRI’s various grants.
          An appropriate accounting methodology to determine some indirect cost amounts
            charged.
         	 Adequate procurement documentation that prevented IRI from determining the
            reasonableness of the security costs; that is, IRI awarded Blackwater Security
            Consultants (Blackwater) a sole-source award to provide security services in Iraq
            from FYs 2004–2009.
         	 Prior approval from Grant Officers in A/LM/AQM to purchase vehicles at a cost of
            $689,500.

Table 1. Grants Awarded to IRI During FYs 2004–2010

         Grant                         Project Description                    Award Term          Grant Amount
                                                                                                    (Millions)
 S-LMAQM-04-GR-133        Political Organization Training                8/10/2004   7/31/2008             $2.2
 S-LMAQM-06-GR-097        Post-Elections Democratic Transitions          6/12/2006   1/30/2008             37.7
 S-LMAQM-07-GR-209        Governance, Political Participation & Civil    9/12/2007   8/31/2010             50.0
                          Society
 S-LMAQM-08-GR-549        Women's Democracy Initiative                   5/12/2008   11/12/2009             1.8
 S-LMAQM-08-GR-601        Pre-Election Activities for Iraqi Provincial   8/4/2008    5/31/2010             19.0
                          Elections
 S-LMAQM-09-GR-560        Election Assistance Program - Iraq             6/11/2009   4/30/2010              3.0
 S-LMAQM-10-GR-504        Iraq Elections Assistance & Accountability     12/3/2009   5/31/2010              5.0
 S-LMAQM-10-GR-535        Post Elections Program                         4/16/2010   5/31/2011             12.0
 Total                                                                                                   $130.7
Source: IRI and Department of State data.


       SIGIR recommended that the Department’s Grant Officer, for the eight grants shown,
conduct an in-depth assessment of IRI cost charges and accounting allocation methods to
determine the level of questionable costs and to determine whether funds should be recovered.
Based on the recommendation, AQM, in conjunction with the Bureau of Democracy, Human
Rights and Labor (DRL), the responsible Department program bureau, requested that OIG
provide audit services concerning IRI claimed security costs.

                                                        Objective

        The primary purpose of this review was to apply agreed-upon procedures to review the
direct and indirect costs charged to the eight grants awarded by the Department to IRI during
FYs 2004–2010 to provide democracy-building programs throughout Iraq. The procedures were
designed to assess the accounting methods used in allocating costs between the grants and to
determine whether those costs and their treatment were in compliance with provisions of OMB
Circulars A-110 and A-122.

                                                        3
                                                   UNCLASSIFIED
                                                    UNCLASSIFIED



                                                         Results

Finding A. Security Costs Were Not Properly Allocated

        During FYs 2004–2010, IRI contracted with six firms to provide security services where
IRI programs were conducted throughout Iraq. The six firms were Ardan Energy Services
(Ardan); Blackwater; Diligence Middle East, LLC (Diligence); Global Strategies Group
(Global); Greystone, Limited (Greystone); and Pilgrims Group, Limited (Pilgrims). We found
that security costs allocated among IRI’s various security providers could not be substantiated by
an appropriate and consistent methodology. OMB Circular A-1222 requires that costs allocated
to a Federal award be treated consistently with other costs incurred for the same purpose and be
distributed in a reasonable proportion to the benefits received. The criteria used to determine the
allocation of costs to a product, contract, or other cost objective should be the same for all
similar objectives. Implementation of this standard and the requirements ensures that costs are
treated in a fair and consistent manner to prevent overcharging as well as to prevent the shifting
of other Federal awards to overcome funding deficiencies.

       The allocation of security costs claimed by IRI between the eight grants reviewed, by
grant and by security contractor, is detailed in Tables 2 and 3, respectively. The amounts
represent direct costs and are exclusive of applied overhead.

Table 2. Security Costs by Grant and Security Contractor (FYs 2004-2010)
    Grant Number           Ardan       Blackwater       Diligence       Global    Greystone       Pilgrims            Total
    S-LMAQM-04-GR-133              -                -     $155,538            -               -              -     $155,538

    S-LMAQM-06-GR-097              -    $23,346,024                 -   $50,312               -              -    23,396,336

    S-LMAQM-07-GR-209     $3,206,369     17,229,416                 -         -    $2,484,667     $1,834,238      24,754,690

    S-LMAQM-08-GR-549              -                -               -         -               -              -             -
    S-LMAQM-08-GR-601      1,940,570      3,704,579                 -               2,484,667      1,037,972       9,167,788

    S-LMAQM-09-GR-560       922,861                 -               -         -               -     518,238        1,441,100

    S-LMAQM-10-GR-504      1,209,091                -               -         -               -     702,843        1,911,935

    S-LMAQM-10-GR-535      2,075,853                -               -         -               -    1,310,143       3,385,996

    Total Costs Claimed   $9,354,744    $44,280,019       $155,538      $50,312    $4,969,335     $5,403,434     $64,213,382
Notes: Greystone is a division of Blackwater. Totals may not add because of rounding.
Source: Analysis of IRI data.




2
    2 C.F.R. § 230, app. A, para. A.4, “Allocable Costs.”

                                                         4
                                                    UNCLASSIFIED
                                                  UNCLASSIFIED


Table 3. Security Costs by Security Contractor and Fiscal Year
Contractor        2005           2006            2007             2008            2009            2010                 Total

Ardan                     -               -                -              -      $1,108,120      $8,246,624       $9,354,744

Blackwater                -     $3,749,731      $16,313,540    $15,602,846        8,613,903                -      44,280,019

Diligence         $155,538                -                -              -                -               -         155,538

Global                    -         18,568           31,745               -                -               -          50,312

Greystone                 -               -                -              -       4,995,761        (26,426)        4,969,335

Pilgrims                  -               -                -              -         506,196       4,897,238        5,403,434

Total             $155,538     $3,768,298       $16,345,284 $15,602,846          $15,223,980 $13,117,436          $64,213,382
Notes: Grant S-LMAQM-GR-04-133 was the only active grant awarded by the Department during FYs 2004 and 2005. It was 

awarded on August 10, 2004, and did not incur costs until September 2004. Totals may not add because of rounding. 

Source: Analysis of IRI data.



       Based on our review of Tables 1–3, we determined that security costs charged to the
grants were not allocated in an appropriate and equitable manner, as detailed in the following
examples:

    	     Grant S-LMAQM-GR-04-133 – The $2.2 million grant was awarded on August 10, 2004,
           and expired on July 31, 2008, but the grant was allocated only $155,538 in security costs.
           Security services for the grant were provided by Diligence from October 2004–
           March 2005, when services with Diligence were terminated. During the grant’s
           approximate 4-year period of performance, security services totaling about $36 million
           were provided by Blackwater and Global and were charged to three other grants under
           review. However, no other security costs from Diligence, Global, or Blackwater were
           claimed on the grant from April 2005–July 2008.

    	 Grant S-LMAQM-GR-06-097 – The total value of the Global contract was approximately
       $1.35 million. However, only $50,312 of the $1.35 million was charged exclusively for
       Grant S-LMAQM-GR-06-097. Global’s contract was to provide IRI with supplemental
       security services in Southern Iraq from December 2005–December 2006.
       Grant S-LMAQM-GR-06-097 was awarded in June 2006 for $37.7 million, and the total
       of all of Global’s invoices from July–December 2006 was charged to this grant.
       However, when the grant program began in June 2006, IRI began allocating Blackwater
       costs to the grant. In total, Blackwater was paid $23,346,024 in security costs for the
       grant. Before July 2006, all costs related to Global and Blackwater security services
       were being allocated by IRI to other non-DRL programs in Iraq that ended around the
       same time that Grant S-LMAQM-GR-06-097 began in June 2006.

    	 Grant S-LMAQM-GR-08-549 – The $1.8 million award had an 18-month period of
       performance, but no security costs were charged during the entire grant period of
       performance. Based on our review of grant documents, we determined that security costs
       were budgeted and approved under this award. Within the budget narrative, IRI officials
       stated that they would charge 0.5 percent of the security bills to the grant.

                                                       5
                                                  UNCLASSIFIED
                                             UNCLASSIFIED




    	 Grants S-LMAQM-07-GR-209, S-LMAQM-08-GR-601, and S-LMAQM-08-GR-549 –
       Greystone, a Blackwater subsidiary, provided security services under a contract whose
       service term was May–August 2009. During this 4-month period, all three of the grants
       were active. However, the Greystone charges were allocated only to
       Grants S-LMAQM-07-GR-209 and S-LMAQM-08-GR-601. IRI equally divided
       security costs at $2,484,667 for each of the two grants.

       The security contractors’ service terms and the areas they served in Iraq are shown in
Table 4.

Table 4. Security Contractors’ Service Terms and Areas Served in Iraq

                     Service Term                         Service Coverage in Iraq
Contractor        Begin         End           North             Central               Southern
Diligence        Jan 2004       Mar 2005 	                         X
Global          Dec 2005        Dec 2006 	                                               X
Blackwater      Nov 2004        Aug 2009        X                  X	                    X
Greystone       May 2009        Aug 2009        X                  X	                    X
Pilgrims        Aug 2009            -	                                                   X
Ardan          Aug 2009             -           X                  X
Source: Analysis of IRI data.

        As SIGIR indicated in its July 2010 report, IRI lacked a consistent methodology for
allocating security costs that ensured reasonable distribution of the costs among its various
grants. During our fieldwork, IRI’s Chief Operations Officer stated that from 2004 to 2009, IRI
received funding for programs in Iraq from other sources, such as the National Endowment for
Democracy and the U.S. Agency for International Development (USAID). Throughout that
period, IRI representatives stated that in apportioning security costs in Iraq to benefited grants, it
was their general practice to consider some or all of the following factors: the anticipated level
of effort under each grant as represented by the relative size of the funding for each grant in
relation to IRI’s total funding for Iraq; monthly budgeted security costs approved in the grant
awards from all funders; and, to a lesser extent, the activities undertaken for each grant at the
time the cost was incurred and/or the expatriate staff hours billed to each grant in relation to the
total hours billed to all Iraqi grants for that period. IRI representatives were unable to provide
documentation to support any decisions regarding the allocation of security costs.

         Through our review and evaluation of monthly contractor invoices, we determined that
total claimed security costs were supported by appropriate documentation. However, the
allocation of these costs among the various grants was not substantiated and could not be
verified by the methods that IRI had stated were the basis of allocation. Beginning in
August 2010, IRI formally changed its policy for allocating security costs in Iraq based on the
proportion of expatriate staff hours billed to individual grants to the total expatriate staff hours
billed for all Iraqi programs during that same period. Based on this revised policy, IRI

                                                  6
                                             UNCLASSIFIED
                                        UNCLASSIFIED


retroactively adjusted security cost allocations beginning in January 2010. Although we
attempted to perform an analysis to revise the costs allocated before January 2010 based on IRI’s
revised methodology, we were unable to do so because the proportions for expatriate hours to
total hours on all Iraqi programs could not be determined with reasonable assurance.

        Without a consistent and reliable methodology that was representative of the entire
period under review, we were unable to assess whether the allocated costs were appropriate and
reasonable. Therefore, we believe that the most measurable and equitable method for
determining whether costs were allocated fairly is on the basis of total direct costs exclusive of
security costs. We determined the total security costs charged, by contractor, for each year and
allocated those costs based on the proportion of each award’s direct costs to the total direct costs
of all grants active during that year. While the allocation adjustment does not affect the total
direct costs incurred across all of the grants amounting to $64,285,818, the adjustment does
result in the potential overcharging on four of the eight grants under review by $4,589,952, as
shown in Appendix B.

        We consider IRI’s revised allocation methodology to be a reasonable basis for allocating
costs from January 2010 and beyond. IRI has adopted and implemented this procedure on a
consistent basis for allocating security costs to all future programs. However, allocation for
security costs for the grants in this review for FYs 2004–2009 will need to be adjusted to comply
with the provisions of OMB Circular A-122.

       Recommendation 1. We recommend that the Grant Officer, Bureau of Administration,
       Office of Logistics Management, Office of Acquisitions Management, direct the
       International Republican Institute (IRI) to reallocate security costs claimed by IRI among
       the eight grants awarded for Iraqi Democracy-Building Programs 
       (Nos. S-LMAQM-04-GR-133, S-LMAQM-06-GR-097, S-LMAQM-07-GR-209,
       S-LMAQM-08-GR-549, S-LMAQM-08-GR-601, S-LMAQM-09-GR-560,
       S-LMAQM-10-GR-504, and S-LMAQM-10-GR-535) and apply overhead costs as
       applicable.

       A/LM/AQM Response: A/LM/AQM concurred with the recommendation, stating that it
       would “follow-up with IRI to assure security costs are correctly applied.”

       OIG Analysis: Based on the response, OIG considers the recommendation resolved,
       pending further action. The recommendation can be closed pending OIG’s review and
       acceptance of documentation showing that IRI has correctly applied security costs for the
       eight grants that provided democracy-building programs in Iraq.




                                             7
                                        UNCLASSIFIED
                                             UNCLASSIFIED



Finding B. Excess Security Costs Were Included in the Overhead Base

        We found that excess security costs were included in the overhead base. As a result,
when overhead rates were applied to the overhead base, indirect costs would be overcharged and
this would reduce the amount of funds available for direct program costs. Within SIGIR’s
July 2010 report, SIGIR interpreted the language within IRI’s Negotiated Indirect Cost Rate
Agreement (NICRA) with USAID to include only the first $25,000 of a subcontract’s value
within the overhead base. IRI’s accounting policy included the first $25,000 of each monthly
invoice over $250,000 within the overhead base. IRI’s rationale was that the monthly invoices it
received from the security contractor should be viewed as individual monthly contracts because
services could be terminated at any time.

         Based on our review of the security service contracts, we noted that the agreements did,
in fact, indicate that the services could be terminated at any time.3 However, as with any
contract, modifications or amendments to the contract were issued for extensions of services.
We determined that the security contracts were granted without extended periods of performance
because of the uncertainty and the volatility of the environment in Iraq at the time these grant
programs were being implemented. The flexibility to renew services as needed and the ability to
cancel the contracts with short notice also provided the Department an opportunity for cost
savings in the event that security services (or the quantity of services) were suddenly deemed to
no longer be required because the incidences of violence in Iraq had been reduced. Whether the
contracts were specified for an extended period of time or were renewed on a monthly basis
should not influence the treatment of the costs and the basis for allocating those costs.

        Beginning with FY 2008, USAID was the cognizant audit agency; the Department
approved IRI’s indirect cost rates before that time. IRI obtained approval from the Department
to implement a policy in which contracts awarded with grant funds greater than $250,000, which
do not require program oversight, were to be treated as subcontracts, and this policy carried
forward to IRI’s agreements with USAID. We reviewed IRI’s NICRAs for FYs 2004–2010 and
determined that IRI’s indirect cost rate structure was consistent during those years. In each year,
IRI’s overhead costs were determined on the basis of a modified total direct cost base (overhead
base) that included provisions that limited the costs on subcontracts to $25,000 for inclusion
within the overhead base.

       According to the July 2010 SIGIR report, IRI’s approach could result in the grantee’s
applying its indirect cost rate against a base of $300,000 per year rather than only $25,000 for
each contract. In the report, IRI representatives stated that they had discussed their approach for
charging indirect cost rates with a USAID official and that the USAID official had approved
IRI’s methodology. SIGIR officials reviewed IRI emails of the discussions and noted that
USAID did not specifically address the treatment of each monthly invoice as a separate contract.

3
 The Blackwater and Greystone contracts specified that services were to be provided on a month-to-month basis and
would renew automatically until notification of termination. The agreements with four other contractors were
generally awarded without extended periods of performance (typically for a 2- to 5-month period), and extensions
of services were executed through modification or amendments. All contracts required a 30- to 60-day advance
notice for termination.

                                                  8
                                             UNCLASSIFIED
                                                UNCLASSIFIED


SIGIR officials discussed the issue with the USAID official who had approved the rates, and the
USAID official informed SIGIR that each monthly invoice was not a separate contract and that
IRI’s interpretation was incorrect and unallowable.

        We reviewed correspondence between IRI and USAID related to IRI’s FY 2008 indirect
cost rate proposal that included schedules supporting an overhead base that followed IRI policies
for subjecting the first $25,000 of monthly security invoices to overhead. While USAID
approved those rates, we believe that the basis of those rates, mainly the inclusion of the monthly
$25,000 from security invoices as opposed to a one-time $25,000 inclusion, contradicts the
language prescribed within the NICRA and does not comply with the principles of OMB
Circular A-122. The underlying principles of Circular A-122 are designed to ensure that the
Federal Government bears its fair share of costs on grants, contracts, and other agreements with
nonprofit organizations. The Government’s fair share of costs includes those costs that are both
reasonable and allowable under Federal statutes. Circular A-122 states that unallowable costs
that are significant should be excluded from the distribution base.4 Such types of cost are capital
expenditures and major subgrants or subcontracts. Typically, these costs are significant in
amount, and inclusion within the cost base would result in greater indirect costs that would not
be representative of overhead costs incurred.

        At the conclusion of our review, we contacted an official within USAID’s Office of
Acquisition, Special Costs, and Contract Close-out Branch, to obtain that office’s interpretation
of the exclusion limitation of subcontract costs within the overhead base. The USAID
representative confirmed that overhead should be applied only once to the first $25,000 of each
subcontract regardless of the period covered under the contract. Accordingly, we adjusted the
overhead bases to reflect a one-time inclusion of $25,000 for each security contract rather than
$25,000 for each monthly invoice from each security contractor as IRI had stated (see
Appendix C). This adjustment resulted in an overbilling of $260,648 from FYs 2004–2010. It
should be noted that the scope of our procedures would not allow us to adjust the overhead rates
that were used to bill the Government on these grants. Making such an adjustment would
require all costs incurred under all of IRI’s Federal awards to be reviewed. A copy of this report
will be sent to USAID to ensure that future indirect cost rate negotiations specifically address the
treatment of security costs and the appropriate amount for inclusion within the overhead base.

         Recommendation 2. We recommend that the Grant Officer, Bureau of Administration,
         Office of Logistics Management, Office of Acquisitions Management, require the
         International Republican Institute (IRI) to adjust its overhead bases to include only the
         first $25,000 of each security contract awarded between 2004 and 2010 and question as
         ineligible the $260,648 in excess overhead costs related to the eight grants awarded for
         Iraqi Democracy-Building Programs Nos. S-LMAQM-04-GR-133,
         S-LMAQM-06-GR-097, S-LMAQM-07-GR-209, S-LMAQM-08-GR-549,
         S-LMAQM-08-GR-601, S-LMAQM-09-GR-560, S-LMAQM-10-GR-504, and
         S-LMAQM-10-GR-535.

4
  While all of the security costs were not excluded from the distribution base, negotiations between IRI and USAID
resulted in allowing a limited amount of the security costs for inclusion (up to $25,000 of the total contract value).
The exclusion of costs in excess of $25,000 is intended to prevent distortion of the indirect costs and rates.

                                                     9
                                                UNCLASSIFIED
                                         UNCLASSIFIED




           A/LM/AQM Response: A/LM/AQM concurred with the recommendation, stating that it
           would “request IRI to reimburse the Department for $260,648 in excess overhead costs.”

           OIG Analysis: Based on the response, OIG considers the recommendation resolved,
           pending further action. The recommendation can be closed pending OIG’s review and
           acceptance of documentation showing that A/LM/AQM has received reimbursement
           from IRI for the $260,648 in excess overhead costs.

Finding C. Security Contracts Were Awarded Without Competition

        We found that for security services awarded during FYs 2004–2010, IRI did not
adequately comply with provisions of OMB Circular A-110,5 which state, “All procurement
transactions shall be conducted in a manner to provide, to the maximum extent practical, open
and free competition.” According to SIGIR’s July 2010 report, the reasonableness of security
costs invoiced by Blackwater could not be assessed because the contract was awarded on a sole-
source basis and a cost analysis was not performed. IRI contracted the services of Blackwater
from November 2004–August 2009. IRI documented, in a justification memorandum dated
November 12, 2004, that it believed at that time that Blackwater was the only firm with the
necessary experience and skills to provide the level of service and protection for IRI staff
working in Iraq and that IRI therefore did not request formal bids from other firms. According
to the justification memorandum, IRI’s Program Director and executive management recognized
the higher security costs associated with Blackwater and initially planned to award the contract
for only 120 days, the time anticipated through the Iraqi elections in January 2005, and then to
reevaluate the need and appropriate level for Blackwater’s services. However, SIGIR’s report
noted that Blackwater’s security services were not reevaluated until 2009, when contracts with
other security firms were awarded. SIGIR’s report also estimated that the monthly cost of
approximately 30 security guards was $81,350 higher than what Ardan would have charged.

        While we acknowledge the volatile security circumstances in Iraq from 2004–2009, IRI
should have periodically reassessed and documented the need to continue procurement of
noncompetitive services from Blackwater. Overall, security costs of $64,285,818 exceeded the
$49,472,461 in direct costs used to carry out the Iraqi democracy-building programs.
Blackwater and Greystone were paid $49,249,354, or 76.7 percent, of the total of $64,285,818 in
security costs. As shown in Table 4, IRI operated in three regions in Iraq (Northern, Central, and
Southern). The Blackwater contract included services for all three regions, while the Ardan
contract covered Northern and Central Iraq and the Pilgrims contract covered Southern Iraq.
The Pilgrims and Ardan contracts were awarded in August 2009 at the same time to replace the
Blackwater contract. Based on our review of award documentation, we determined that both
Pilgrims and Ardan had substantial prior experience in those regions where they were awarded
contracts to perform services. As shown in Table 5, the cost savings upon recompeting the
Blackwater contract would have been approximately $128,000 per month.



5
    2 C.F.R § 215.43, “Competition.”

                                              10
                                         UNCLASSIFIED
                                               UNCLASSIFIED


Table 5. Average Monthly Security Costs: Blackwater Versus
Ardan and Pilgrims
       Contractor           Average Monthly Invoice
 Blackwater                                    $1,283,853
 Ardan ($727,501) and
 Pilgrims ($428,537)                           $1,156,038
             Difference                                   $127,815
Source: Analysis of IRI data.

        IRI could not provide documentation showing that its contract with Global was awarded
on a competitive basis. Specifically, OMB Circular A-1106 requires recipients to maintain
procurement records and files that include, at a minimum, the basis of contractor selection,
justifications for lack of competition, and the basis for award cost or price. As previously stated,
the Global contract was awarded on December 30, 2005, for supplemental security services in
Southern Iraq. Services were renewed on a month-to-month basis, as needed, through the end of
December 2006. According to IRI’s Program Officer, several firms made presentations to IRI
senior management prior to the award, and Global was the only company that followed up with a
formal proposal. Additionally, the Program Officer stated that other firms had provided
responses via e-mails and that an informal cost analysis had been performed. Although we
requested documentation to support the Program Officer’s comments, IRI could provide only the
proposal submitted by Global and a schedule that compared Global’s proposed rates with the
rates under IRI’s existing contract with Blackwater.

           Recommendation 3. We recommend that the Grant Officer, Bureau of Administration,
           Office of Logistics Management, Office of Acquisitions Management, direct the
           International Republican Institute to comply with Office of Management and Budget
           Circular A-110 to provide for full and open competition and maintain procurement
           records and files that include, at a minimum, the basis of contractor selection,
           justification for lack of competition, and the basis for award cost or price.

           A/LM/AQM Response: A/LM/AQM concurred with the recommendation, stating that it
           would “follow-up with IRI to assure full compliance with [Circular] A-110.”

           OIG Analysis: Based on the response, OIG considers the recommendation resolved,
           pending further action. The recommendation can be closed pending OIG’s review and
           acceptance of documentation showing that IRI has reinforced control procedures that
           provide for full and open competition and require procurement records and files that
           include, at a minimum, the basis of contractor selection, justification for lack of
           competition, and the basis for award cost or price.




6
    2 C.F.R § 215.46, “Procurement Records.”

                                                    11
                                               UNCLASSIFIED
                                                UNCLASSIFIED



Finding D. Vehicles Were Acquired Without Prior Approval From Grant
Officer

        SIGIR’s July 2010 report questioned $689,500 for vehicle acquisitions because approval
had not been obtained from the Department prior to the vehicles’ purchase. The agreement
between IRI and Ardan, dated August 17, 2009, required that Ardan, on behalf of IRI, purchase
vehicles that would be needed for providing the services necessary under the service agreement.
Ardan would then bill back the costs of the vehicles in five monthly installments–the initial term
of the agreement. SIGIR officials stated that they believed that the nature of this transaction
reflected that of a capital lease, in which IRI could benefit and profit from the sale of the
vehicles at the end of the lease term. IRI’s other security contracts used vehicles (already owned
by the contractors), and IRI would be billed a monthly rate for its use in providing services.

        Our further review of the Ardan agreement indicated that upon full recovery of the
vehicle costs, Ardan would not charge a monthly rate for vehicle use no matter how long
services would be needed. Also, the agreement stipulated that when vehicles were deemed to be
no longer required, Ardan would sell the vehicles to a third party and IRI would be provided
with the proceeds of the sale. However, if a third-party buyer could not be found, a guaranteed
minimum 25 percent buyout option from Ardan would be provided to IRI on the original
acquisition cost. While the terms of the agreement provided an opportunity for IRI to profit
from the acquisition and sale of the vehicles, IRI explained that any proceeds from the sale of
vehicles would be credited to the grants as supported by a formal memorandum, dated
September 20, 2010. The memorandum documented that two vehicles were being released and
that Ardan would provide a 75 percent credit on all prior rental charges related to those vehicles.
The memorandum indicated that approval of the method for crediting the grants had been
obtained from the Grant Officer, who recommended that the credit be applied across IRI’s
current active grants. We were provided with a copy of e-mail correspondence dated August 17,
2010, between IRI’s Program Director and the Grant Officer to support the approval.

        We agree with SIGIR that IRI should have informed the Grant Officer about the
requirement to purchase vehicles under the security contract. While title never passed to IRI, we
believe that the underlying substance of the transaction was one in which IRI had all the risks
and rewards of ownership.7 Therefore, the vehicles should have been inventoried and tracked by
IRI personnel and subjected to the property standards required by OMB Circular A-110.8 We
found no documentation showing that IRI did not act in good faith or that it had any intention of
benefiting from the proceeds of the sale of the vehicles. However, the Grant Officer should have
been made aware of the contractual arrangement requiring the purchase of the vehicles. In
addition, the decision to sell vehicles deemed to be no longer required should have been made by
the Department and not the grantee.



7
  As noted, IRI was required to pay for the acquisition of the vehicles under its service agreement with Ardan. In 

addition to the requirement of acquiring the vehicles for use under the contract, the agreement also stated that

should any vehicles be damaged or destroyed, IRI would be responsible for replacing those vehicles. 

8
  2 C.F.R § 215.34, “Equipment.” 


                                                     12
                                                UNCLASSIFIED
                                         UNCLASSIFIED



       Recommendation 4. We recommend that the Grant Officer, Bureau of Administration,
       Office of Logistics Management, Office of Acquisitions Management, direct the
       International Republican Institute to adopt an internal control policy whereby the Grant
       Officer must approve acquisitions of capital equipment required for the execution of
       contracts in advance of the equipment’s purchase.

       A/LM/AQM Response: A/LM/AQM concurred with the recommendation, stating that it
       would “request [that] IRI establish internal control policy to have the Grant Officer
       approve in advance acquisitions of capital equipment.”

       OIG Analysis: Based on the response, OIG considers the recommendation resolved,
       pending further action. The recommendation can be closed pending OIG’s review and
       acceptance of documentation showing that IRI has establish an internal control policy to
       have the Grant Officer provide advance approval for acquisition of capital equipment.

Finding E. Internal Controls Over Equipment Required Improvement

        IRI purchased gym equipment totaling $26,600 in June 2009 that was charged against
Grant S-LMAQM-07-GR-209. However, the equipment was never delivered and remained as a
claimed cost against the award. IRI requires its field offices to provide physical inventory
reports to IRI headquarters on an annual basis. The gym equipment was to be delivered to IRI’s
Erbil compound for use by its expatriate staff. Based on our reconciliation of IRI’s field office
inventory reports to the equipment costs within the general ledger, we found that the gym
equipment was not included in the field office reports but continued to be charged against the
grant as of the end of FYs 2009, 2010, and 2011.

        Based on our inquiries during fieldwork, IRI investigated the issue and stated that the
supplier could not deliver the equipment into Iraq because the Iraqi Government had imposed a
100 percent customs tax on all imported goods and that the goods were being held at the border.
Several attempts were made to negotiate a refund, but the attempts were unsuccessful. IRI
officials stated that in February 2010, they informed the supplier that they would be arriving to
witness the sale of the equipment to recover any remaining funds minus any legitimate storage
fees. However, the supplier informed IRI that the equipment was “left at the border” and that the
buyer had nothing else to do with the issue. IRI officials stated that they were unable to verify
the claim or the location of the equipment but added that they were considering the equipment to
be lost or stolen and were, as of March 19, 2012, consulting with their insurance representatives
to assess possible recovery of the equipment’s cost.

        IRI officials stated that each field office is required to physically count and inventory all
property in its possession or control and to submit an inventory list to IRI headquarters on an
annual basis. With respect to inventory lists, in particular, it is IRI’s practice for IRI
headquarters staff to monitor field offices’ compliance with IRI’s property policies by sending
Regional Accountants or Project Accountants to regularly visit field offices and to conduct on-
site reviews of those field offices. As part of this financial review, these visits included testing
the existence, completeness, and accuracy of equipment listed on inventory reports. Under the
Iraqi program, the Regional Accountant responsible for performing the Iraq field office visits
                                              13
                                         UNCLASSIFIED
                                            UNCLASSIFIED


lived on the Erbil compound. IRI officials stated that because of security issues, travel
restrictions prevented the Regional Accountant from traveling to the Baghdad and Basra offices
and imposed limitations on IRI’s practice of reconciling certain equipment on inventory reports.
To compensate for the travel restrictions, IRI officials stated that staff from the field offices
conducted physical inventories and that two or more staff would sign off on the inventory lists
and submit the lists to IRI headquarters accounting staff.

        Despite the limitations on travel, the Regional Accountant responsible for performing
Iraq field office inventories lived on the Erbil compound, where the gym equipment was to be
delivered. In addition, IRI officials stated that the field office inventories were submitted to
accounting personnel to compensate for the Regional Accountant’s limitations on travel.
Regardless of whether the Regional Accountant was unable to perform inventory verification as
part of IRI’s annual field office visits, the inventory records that were submitted by the field
offices should have been reconciled to the accounting records.

        Property standards prescribed in OMB Circular A-1109 require recipients of Federal
awards to provide adequate accountability over equipment purchased with grant funds.
Specifically, grantees are required to perform physical inventories and reconcile the results to the
equipment records at least once every 2 years. Program Officers at IRI headquarters were not
aware of the missing equipment and therefore did not take adequate actions to remedy the
situation in a timely manner. As a result of our reconciliation of field office inventory listings to
the general ledger, IRI’s Program Director sent an e-mail on March 27, 2012, to inform the Grant
Officer that the equipment had not been delivered and that IRI had submitted an insurance claim
for the recovery of funds for the lost equipment. We believe that if IRI had performed adequate
reconciliation procedures on the inventory reports, it would have identified the discrepancy.

           Recommendation 5. We recommend that the Grant Officer, Bureau of Administration,
           Office of Logistics Management, Office of Acquisitions Management, question the
           $26,600 cost for gym equipment in Grant S-LMAQM-07-209 that was never delivered.

           A/LM/AQM Response: A/LM/AQM concurred with the recommendation, stating that it
           would “request IRI to reimburse the Department for $26,600 for gym equipment that was
           never provided.”

           OIG Analysis: Based on the response, OIG considers the recommendation resolved,
           pending further action. The recommendation can be closed pending OIG’s review and
           acceptance of documentation showing that IRI has reimbursed the Department for
           $26,600 for gym equipment that was never provided.

           Recommendation 6. We recommend that the Grant Officer, Bureau of Administration,
           Office of Logistics Management, Office of Acquisitions Management, request that the
           International Republican Institute comply with Office of Management and Budget
           Circular A-110, 2 C.F.R. § 215.34(f)(3), to enhance controls over equipment purchased
           with grant funds so that field office inventories are reconciled to accounting records.

9
    OMB Circular A-110, pt. 215.34(f)(3).

                                                 14
                                            UNCLASSIFIED
                                UNCLASSIFIED




A/LM/AQM Response: A/LM/AQM concurred with the recommendation, stating that it
would “follow-up with IRI to assure full compliance with [Circular] A-110.”

OIG Analysis: Based on the response, OIG considers the recommendation resolved,
pending further action. The recommendation can be closed pending OIG’s review and
acceptance of documentation showing that IRI has reinforced control procedures for
equipment purchased with grant funds so that field office inventories are reconciled to
accounting records.




                                     15
                                UNCLASSIFIED
                                        UNCLASSIFIED



                                 List of Recommendations 


Recommendation 1. We recommend that the Grant Officer, Bureau of Administration, Office
of Logistics Management, Office of Acquisitions Management, direct the International
Republican Institute (IRI) to reallocate security costs claimed by IRI among the eight grants
awarded for Iraqi Democracy-Building Programs (Nos. S-LMAQM-04-GR-133,
S-LMAQM-06-GR-097, S-LMAQM-07-GR-209, S-LMAQM-08-GR-549,
S-LMAQM-08-GR-601, S-LMAQM-09-GR-560, S-LMAQM-10-GR-504, and
S-LMAQM-10-GR-535) and apply overhead costs as applicable.

Recommendation 2. We recommend that the Grant Officer, Bureau of Administration, Office
of Logistics Management, Office of Acquisitions Management, require the International
Republican Institute (IRI) to adjust its overhead bases to include only the first $25,000 of each
security contract awarded between 2004 and 2010 and question as ineligible the $260,648 in
excess overhead costs related to the eight grants awarded for Iraqi Democracy-Building
Programs Nos. S-LMAQM-04-GR-133, S-LMAQM-06-GR-097, S-LMAQM-07-GR-209,
S-LMAQM-08-GR-549, S-LMAQM-08-GR-601, S-LMAQM-09-GR-560,
S-LMAQM-10-GR-504, and S-LMAQM-10-GR-535.

Recommendation 3. We recommend that the Grant Officer, Bureau of Administration, Office
of Logistics Management, Office of Acquisitions Management, direct the International
Republican Institute to comply with Office of Management and Budget Circular A-110 to
provide for full and open competition and maintain procurement records and files that include, at
a minimum, the basis of contractor selection, justification for lack of competition, and the basis
for award cost or price.

Recommendation 4. We recommend that the Grant Officer, Bureau of Administration, Office
of Logistics Management, Office of Acquisitions Management, direct the International
Republican Institute to adopt an internal control policy whereby the Grant Officer must approve
acquisitions of capital equipment required for the execution of contracts in advance of the
equipment’s purchase.

Recommendation 5. We recommend that the Grant Officer, Bureau of Administration, Office
of Logistics Management, Office of Acquisitions Management, question the $26,600 cost for
gym equipment in Grant S-LMAQM-07-209 that was never delivered.

Recommendation 6. We recommend that the Grant Officer, Bureau of Administration, Office
of Logistics Management, Office of Acquisitions Management, request that the International
Republican Institute comply with Office of Management and Budget Circular A-110, 2 C.F.R.
§ 215.34(f)(3), to enhance controls over equipment purchased with grant funds so that field
office inventories are reconciled to accounting records.




                                             16
                                        UNCLASSIFIED
                                       UNCLASSIFIED




                                                                                    Appendix A
                                  Scope and Methodology

        Clarke Leiper, PLLC (referred to as “we” in this appendix), performed procedures
enumerated, which were agreed to by the Office of Inspector General (OIG), solely to assist in
evaluating the International Republican Institute’s (IRI) cost charges and allocation of costs
related to eight democracy-building grants in Iraq awarded by the Department of State
(Department) during FYs 2004–2010. The procedures we performed are as follows:

       We reviewed Special Inspector General for Iraq Reconstruction (SIGIR) reports to
        identify specific concerns apart from the normal audit focus.
       We obtained copies of the grant instruments and identified provisions relevant to the
        audit.
   	   We reviewed IRI’s Office of Management and Budget (OMB) Circular A-133, Audits of
        States, Local Governments, and Non-Profit Organizations, audit reports to discern any
        reported material weaknesses, significant deficiencies, and/or reportable instances of
        noncompliance.
   	   We reviewed reconciliations between the amounts presented on the Schedule of Federal
        Awards accompanying each of IRI’s audited financial statements to the amounts reported
        to the Department on OMB Standard Form (SF)-269, Financial Status Report, for each of
        IRI’s grant awards for each year.
   	   We obtained an understanding of the internal control processes related to each of the
        significant types of costs incurred under Department grants.
   	   We assessed whether IRI’s systems and procedures complied with the major
        requirements of OMB Circular A-110, Uniform Administrative Requirements for Grants
        and Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit
        Organizations, and Circular A-122, Cost Principles for Non-Profit Organizations.
   	   We determined what costs were allocated to individual grant programs, the bases of
        allocation, and whether the allocation of those costs was in compliance with the
        provisions of OMB Circular A-122.
   	   We assessed, by tests of transactions, whether claimed costs
            o	 were supported by related documents;
            o	 had obtained required approvals;
            o	 were reasonable for the performance of the award;
            o	 conformed to any limitations or exclusions, including those set forth in the terms
                and conditions of the grants and the principles set forth in OMB Circular A-122;
            o	 were consistent with applicable IRI policies and procedures;
            o	 were accorded consistent treatment;
            o	 were determined in accordance with generally accepted accounting principles;
                and
            o	 were not used to meet cost sharing or matching requirements of any other
                federally funded program.




                                            17
                                       UNCLASSIFIED
                                        UNCLASSIFIED


       The results of applying these procedures are set forth in the accompanying appendices
and schedules (see Appendices B and C and tables contained in the report). The procedures
described do not constitute an audit conducted in accordance with generally accepted auditing
standards or Government Auditing Standards. Accordingly, we do not express such an opinion.
Had we performed additional procedures, other matters might have come to our attention that
would have been reported. We conducted the procedures specified between November 2011 and
March 2012. The majority of our fieldwork was performed at IRI. To obtain additional
information to support elements of our review, we also contacted SIGIR’s Office of Audits and
the U.S. Agency for International Development’s Office of Acquisition, Special Costs, and
Contract Close-out Branch. At the conclusion of our work, we briefed IRI officials, the Grant
Officer for IRI grants, and a program official from the Bureau of Democracy, Human Rights and
Labor on findings and tentative recommendations.

Work Related to Internal Controls

       To assess the adequacy of internal controls related to IRI’s costs charged to the grants
under review, we performed the following actions:

   	 Obtained an understanding of IRI’s processes and procedures related to
          o	 general transaction processing and approval,
          o	 recording costs against Federal awards, and
          o compliance with Federal regulations on financial reporting of grant expenditures.
    Reviewed IRI policy manuals and other appropriate supporting documents to assess the
      adequacy of stated controls.
   	 Reviewed independent auditors’ working papers related to the financial statement audits
      for FYs 2004–2010 and noted any findings related to internal controls or noncompliance
      with Federal regulations.
   	 Assessed, by tests of activity, whether the following procedures were adequate to ensure
      compliance with the provisions of OMB Circular A-122:
          o	 Financial management
          o	 Property
          o	 Procurement
          o	 Reports and records

       Based on these procedures, we found the following:

   	 IRI’s OMB Circular A-133 audit reports did not report any relevant material weaknesses,
      significant deficiencies, and/or instances of noncompliance.
   	 For each of the grant awards under review, the amounts presented on the Schedule of
      Expenditures of Federal Awards accompanying each of IRI’s audited financial statements
      FYs 2004– 2010 were reconciled to information on the SFs-269 reported to the
      Department.
   	 The amounts presented on the Schedule of Expenditures of Federal Awards and the
      SFs-269 were considered to be appropriate; however, based on our work and
      recommended actions in this report, they will need to be adjusted.

                                             18
                                        UNCLASSIFIED
                                       UNCLASSIFIED



      IRI could not provide adequate procurement-related documentation related to the award
       of two security contractors.
      Prior to January 2010, IRI did not consistently allocate security costs between benefitting
       grants.
      The acquisition, control, and reconciliation over controls related to equipment needed to
       be strengthened.

Data Reliability

        For each grant reviewed, we obtained general ledger transaction details and performed
the following actions:

      Selected stratified samples based on major cost categories. 

      Reviewed appropriate supporting documentation related to sample items to verify that the 

       direct costs charged to the grants were accurate and appropriately approved.
      Assessed whether those costs were allowable and proper for the purpose of the grant.
      Determined that the costs were recorded within the appropriate accounts.
      Verified that the indirect cost pools and allocation bases were reasonable.
      Verified that the indirect cost rates were applied to appropriate bases.
      Reconciled total cost data to the Schedule of Expenditures of Federal Awards and
       Quarterly Financial Status Reports.
      Reviewed monthly security invoices for FYs 2004–2010 and traced them to the IRI
       general ledger.
      Reviewed the allocations of security invoices to the benefiting grants and determined
       whether the method for allocation was reasonable, consistent, and measureable.

Use of Computer-Processed Data

         We used computer-processed data from IRI’s accounting system to select sample items
for testing costs charged against the eight awards being reviewed. IRI utilizes Deltek for
processing, recording, and aggregating costs against Federal awards. We determined that the IRI
data and schedules were reliable based on our selected samples and our testing of internal
controls involving financial reporting requirements under OMB Circular A-110.




                                            19
                                       UNCLASSIFIED
                                                                               UNCLASSIFIED


                                                                                                                                                     Appendix B
Schedule of Total Claimed and Recommended Costs, by Grant


                                                                                                                                                                    Total
                                                    Grant 133     Grant 097     Grant 209    Grant 549     Grant 601     Grant 560    Grant 504     Grant 535*    2004-2010

Total Direct Cost (less Security)                    1,690,234    11,374,209    21,187,182    1,534,330     8,336,794       985,081    2,550,411     1,814,220     49,472,461

Security Costs Claimed                                 159,061    23,463,380    24,754,690          -       9,167,788     1,442,970    1,911,935     3,385,996     64,285,818
Security Costs Recommended                           2,496,445    22,016,147    23,657,640    1,755,877     9,459,836       933,560    2,317,660     1,648,654     64,285,818

Overhead Allocation Base, Claimed                    1,751,437    12,039,922    19,640,931    1,503,708     7,872,607       927,207    1,850,824      2,014,447    47,601,082
Overhead Allocation Base, Recommended                1,787,108    11,583,114    19,061,127    1,510,604     7,642,601       869,321    1,768,654      1,851,182    46,073,710

Indirect
   Claimed                                             361,500     2,722,227     3,948,167      240,760     1,455,971       194,024      434,404       459,947      9,816,999
   Recommended                                         367,947     2,641,841     3,854,124      241,742     1,419,844       183,013      418,833       429,008      9,556,351

Total Claimed                                        2,210,795    37,559,815    49,890,039    1,775,090    18,960,553     2,622,074    4,896,749      5,660,162   123,575,278
Total Recommended                                    4,554,626    36,032,197    48,698,946    3,531,948    19,216,474     2,101,654    5,286,904      3,891,882   123,314,630



Approved Budget                                      2,200,000    37,700,000    50,000,000    1,800,000    19,000,000     3,000,000    5,000,000    12,000,000    130,700,000

Under (Over) Budget                                 (2,354,626)    1,667,803     1,301,054   (1,731,948)     (216,474)      898,346     (286,904)   8,108,118*      7,385,370


* - Grant 535 continued operations after FY 2010.

         Source: Analysis of IRI data.



                                                                                    20
                                                                               UNCLASSIFIED
                                                                           UNCLASSIFIED


                                                                                                                                                         Appendix C


Allocation of Security Costs Subject to Overhead

Claimed and Recommended
                                         Ardan Energy         Blackwater      Diligence       Global        Greystone      Pilgrim Group
                                                                                                                                         Misc Security
                                           Services            Security      Middle East    Strategies       Limited          Limited                      Total

Total Security Costs, Claimed                9,354,744         44,280,019         155,538        50,312       4,969,335        5,403,434        72,436     64,285,818

Overhead Allocation Base, Claimed              334,250            873,160          14,800        50,312         100,000         334,750         42,536      1,749,808
Overhead Allocation Base, Recommended           25,000             25,000          25,000        25,000          25,000          25,000         72,436        222,436

Indirect Overhead
   Claimed                                         60,970         143,811           2,457         9,100          12,957          61,065          7,818       298,179
   Recommended                                      3,553           4,670           4,150         4,610           3,553           3,553         13,444        37,531

Total Claimed                                9,415,714         44,423,830         157,995        59,412       4,982,292        5,464,500        80,254     64,583,997
Total Recommended                            9,358,296         44,284,689         159,688        54,922       4,972,887        5,406,987        85,880     64,323,349

Difference                                         (57,418)      (139,141)          1,693         (4,490)        (9,405)         (57,513)        5,626       (260,648)

Source: Analysis of IRI data.




                                                                                21
                                                                           UNCLASSIFIED
                          UNCLASSIFIED



                                                                                 Appendix D



                                           United SlatCK Department of Stat..




                                              June 7.2012


UNCLASSIF IED

MEMORAND UM

TO:          OIGfAUD - Richard Astor        (l
FROM:        AfLM - Catherine I. Eben-G niYh"\

SUBJECT: Draft Repon on Review of Costs Chnrged to Iraq Dcmocracy­
Building Grants Awarded to the International Republican Institute, During
FYs 2004-2010. May 2012

Below is the Bureau of Administration'S response to the subje<:t audit and
the point of contact for tlicsc responses is Donald Hunter, Branch Chief in
the Intemational Programs Division. Granls Branch, who ean be reached at
703-875-4655.

Recommendat ioa I: We rn;ommend that the G""l1l1 Officer, Bureau of
Administration, Office of Logistics Management. Office of Acquisitions
Management, direct the International Republ ican Institute (IRI) to reallocate
security costs claimed by IRI among the eight grants awarded for Iraqi
Democracy-Building Programs (Nos. S-LMAQM-04-G R- 133, S-LMAQM-
06-GR-097, S-LMAQM-07-GR-209. S-LMAQM-08-GR-S49, S-LMAQM­
OS-GR-601. S- LMAQM-09-GR-560, S-LMAQM-IO-GR-504. and S­
LMAQM- IO-GR-535) and appl y overhead cosU D$ applicable.

AlLMlAQM Response (513112012): The Bwtauof Administration,
Office of Logistics Management, Officc of Acquisitions Management,
( A /L M /AQM) concurs. AQM will follow-u p with IRl to assure
security costs are applied correctly.

Recommendation 2: We recommend that the Grants Officer, Bureau of
Administration, Office of Logistics Management. Office of Acquisitions




                          22 

                     UNCLASSIFIED
                     UNCLASSIFIED




                              UNCLASSIFIED

Management, require the International Republican Institute (JRI) to adjust its
overhead bases to include only the first $25,000 of each security contract
awarded between 2004 and 20 I 0 and question as ineligible the $260,648 in
excess overhead costs related to the eight grants awarded for Iraqi
Democracy-Building Programs: Nos. S-LMAQM-04-GR- 133, S-LMAQM-
06-GR-097, S-LMAQM-07-GR-209, S-LMAQM-08-GR-549, S-LMAQM-
08-GR-60 I, S-LMAQM-09-GR-560, S-LMAQM- I 0-GR-504, and S­
LMAQM- IO-GR-535 .

AlLMlAQM Response (5/31/12): The Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, (A/LM/AQM)
concurs . AQM will request IRI to reimburse the Department for
$260,648 in excess overhead costs.

Recommendation 3: We recommend that the Grants Officer, Bureau of
Administration, Office of Logistics Management, Office of Acquisitions
Management, direct the International Republican Institute (lRI) to comply
with Office of Management and Budget Circular A- II 0 to provide for full
and open competition and maintain procurement records and files that
include, at a minimum, the basis of contractor selection, justification for lack
of competition, and the basis for award cost or price.

AlLM/AQM Response (5/31/12): The Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, (A/LM/AQM)
concurs. AQM will follow -up with IRI to assure full compliance with
A- IIO.

Recommendation 4: We recommend that the Grants Officer, Bureau of
Administration, Office of Logistics Management, Office of Acquisitions
Management, direct the International Republican Institute to adopt an
internal control policy whereby the Grants Officer must approve acquisitions
of capital equipment required for the execution of contracts in advance of
the equipment's purchase.

AlLM/AQM Response (5/31112): The Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, (A/LM/AQM)
concurs. AQM will request IRI establish internal control policy to
have the Grants Officer approve in advance acquisitions of capital
equipment.
                              UNCLASSIFIED
                                       2




                          23 

                     UNCLASSIFIED

                    UNCLASSIFIED




                             UNCLASSIFIED


Recommendation 5: We recommend that the Grants Officer, Bureau of
Administration, Office of Logistics Management, Office of Acquisitions
Management, question the $26,600 cost for gym equipment in Grant S­
LMAQM-07-209 that was never delivered.

A1LM/AQM Response (5131112): The Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, (A/LM/AQM)
concurs . AQM will request IRI to reimburse the Department for
$26,600 for gym equipment that was never provided.

Recommendation 6: We recommend that the Grants Officer, Bureau of
Administration, Office of Logistics Management, Office of Acquisitions
Management, request that the Intemational Republican Institute comply with
Office of Management and Budget Circular A-I 10, 2 C.F.R. § 215.34(1)(3),
to enhance controls over equipment purchased with grant funds so that fie ld
office inventories are reconciled to accounting records.

A1LMlAQM Response (5/31112): T he Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, (A /LM /AQM)
concurs. AQM will follow- up with IRI to assure full compliance with
A - I 10.




                             UNCLASSIFIED
                                     3




                         24 

                    UNCLASSIFIED

FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

